    contains the general provisions and detailed instructions for collecting and
    preparing data on DOD units and selected foreign and international units. Units
    report an overall unit resource and training category level (C-level) as well as
    unit status in four measured resource areas: personnel (P-level), equipment and
    supplies on hand (S-level), equipment condition (R-level), and training
    (T-level). C-levels can range from C-l to C-5 based on whether the unit has the
    required resources and training necessary to undertake the wartime mission(s)
    for which the unit was organized or designed. C-l represents the most
    favorable level of resources and training. A unit’s C-level will be identical to
    the lowest level recorded for any measured resource area unless subjectively
    lowered or raised by the unit commander.



Y2K Status of SORTS Reporting Systems
    Readiness Reporting Systems. With the exception of GCCS-Maritime and
    GSORTS, DOD systems used to report SORTS data were not always properly
    certified and reported on the DOD Y2K reporting database. Specifically, the
    SORTS database was inappropriately certified and reported as Y2K compliant.
    The Army did not certify GCCS-A as Y2K compliant in accordance with the
    Army Y2K Action Plan, revision 2, June 1998. The “DOD Year 2000
    Management Plan, version 2.0” (DOD Management Plan), December 1998
    states that a certified system is a system that the system administrator has signed
    off as Y2K compliant using the checklist provided in the DOD Management
    Plan. Appendix D lists the processes and tests that a system administrator
    should perform before certifying a system as Y2K compliant. The DOD
    Management Plan provides a target completion date of December 31, 1998, for
    certification of mission-critical systems.

             SORTS Database and GSORTS Certifications and Reporting. The
    Defense Information Systems Agency appropriately certified and reported
    GSORTS as Y2K compliant in the DOD Y2K reporting database. However, the
    Defense Information Systems Agency inappropriately certified and reported the
    SORTS database as Y2K compliant in the DOD Y2K reporting database. The
    Defense Information Systems Agency designated SORTS as a certified mission-
    critical system but was unable to provide certification documentation. The DOD
    Management Plan clearly states that program managers will develop and
    maintain all necessary documentation that supports certification of Y2K
    compliance. The Defense Information Systems Agency based the certification
    on internal tests and testing performed by the Joint Interoperability Test
    Command6 on the GCCS. The Joint Interoperability Test Command tested
    GSORTS, a subsystem of GCCS, but did not conduct Y2K tests of the SORTS
    database during the GCCS preoperational evaluation conducted in October 1998
    and the operational evaluation conducted in December 1998. The system
    administrator should certify a system as Y2K compliant only if the steps
    outlined in the DOD Management Plan are completed and documented. The

    6A DOD organization that perform independent operatioual test and evaluation and assessments
     of the Defense Information System Agency and other DOD organizations.


                                             4
